     Management Advisory Report



  Single Audit of the New Mexico
Public Education Department for the
 Fiscal Year Ended June 30, 2013




        A-77-14-00011 | June 2014
Single Audit of the New Mexico Public Education Department
for the Fiscal Year Ended June 30, 2013
A-77-14-00011
June 2014                                                                Office of Audit Report Summary

Objective                                 Findings

To report internal control weaknesses,    The single audit reported that DVR did not:
noncompliance issues, and
unallowable costs identified in the          Perform periodic reviews and verifications of renewals of
single audit to the Social Security           consultative examination (CE) providers’ medical licenses that
Administration (SSA) for resolution           expired during the period October 2011 through December
action.                                       2012.

Background                                   Perform DDS grant reconciliations timely and consistently.

Moss Adams LLP conducted the single       Recommendations
audit of New Mexico Public Education
Department. SSA is responsible for        We recommend that SSA:
resolving single audit findings related
                                          1. Ensure the DDS has appropriate procedures to periodically
to its Disability programs. The
                                             verify CE provider license renewals.
Division of Vocational Rehabilitation
(DVR) is the New Mexico Disability        2. Ensure DVR has appropriate procedures to reconcile DDS
Determination Services’ (DDS) parent         grants timely.
agency.
MEMORANDUM
Date:      June 11, 2014                                                              Refer To:

To:        Gary S. Hatcher
           Senior Advisor
           Records Management and Audit Liaison Staff
From:      Inspector General
Subject:   Single Audit of the New Mexico Public Education Department for the Fiscal Year Ended
           June 30, 2013 (A-77-14-00011)

           This report presents the Social Security Administration’s (SSA) portion of the single audit of the
           New Mexico Public Education Department for the Fiscal Year (FY) ended June 30, 2013. 1 Our
           objective was to report internal control weaknesses, noncompliance issues, and unallowable
           costs identified in the single audit to SSA for resolution action.

           Moss Adams LLP performed the audit. We have not received the results of the desk review
           conducted by the Department of Education (ED). We will notify you if ED determines the audit
           did not meet Federal requirements. In reporting the results of the single audit, we rely entirely
           on the internal control and compliance work performed by Moss Adams LLP and the reviews
           performed by ED. We conducted our review in accordance with the Council of the Inspectors
           General on Integrity and Efficiency’s Quality Standards for Inspection and Evaluation.

           For single audit purposes, the Office of Management and Budget assigns Federal programs a
           Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability Insurance (DI) and
           Supplemental Security Income (SSI) programs are identified by CFDA number 96. SSA is
           responsible for resolving single audit findings reported under this CFDA number.

           The New Mexico Disability Determination Services (DDS) performs disability determinations
           under SSA’s DI and SSI programs in accordance with Federal regulations. The DDS is
           reimbursed for 100 percent of allowable costs. The Division of Vocational Rehabilitation (DVR)
           is the New Mexico DDS’ parent agency.




           1
               Moss Adams LLP, State of New Mexico Public Education Department, Single Audit, June 30, 2013.
Page 2 - Gary S. Hatcher

The single audit reported DVR did not:

     Perform periodic reviews and verifications of renewals of consultative examination (CE)
      providers’ medical licenses that expired during the period October 2011 through December
      2012. 2 The corrective action plan indicates the DDS will verify that medical licenses are
      current, valid, and without sanction by checking the New Mexico Medical Board website and
      the Department of Health and Human Services, Office of the Inspector General, List of
      Excluded Individuals and Entities.

     Perform DDS grant reconciliations timely and consistently. 3 The corrective action plan
      indicates that DVR’s Budget and Grants Management Unit will begin DDS daily drawdowns
      and monthly grant reconciliations.

We recommend that SSA:

1. Ensure the DDS has appropriate procedures to periodically verify CE provider license
   renewals.

2. Ensure DVR has appropriate procedures to reconcile DDS grants timely.

Please send copies of the final Audit Clearance Document to Shannon Agee. If you have
questions, contact Shannon Agee at (877) 405-7694, extension 18802
or Shannon.Agee@ssa.gov.




                                               Patrick P. O’Carroll, Jr.

Attachment

cc:
Lynn Bernstein




2
    Id. at finding DVR 2013-05.
3
    Id. at finding DVR 2013-01.
                                           MISSION
By conducting independent and objective audits, evaluations, and investigations, the Office of
the Inspector General (OIG) inspires public confidence in the integrity and security of the Social
Security Administration’s (SSA) programs and operations and protects them against fraud,
waste, and abuse. We provide timely, useful, and reliable information and advice to
Administration officials, Congress, and the public.


                                   CONNECT WITH US
The OIG Website (http://oig.ssa.gov/) gives you access to a wealth of information about OIG.
On our Website, you can report fraud as well as find the following.
   •   OIG news                                  In addition, we provide these avenues of
   •   audit reports
                                                 communication through our social media
                                                 channels.
   •   investigative summaries
   •   Semiannual Reports to Congress                Watch us on YouTube
   •   fraud advisories                              Like us on Facebook
   •   press releases
                                                     Follow us on Twitter
   •   congressional testimony
   •   an interactive blog, “Beyond The              Subscribe to our RSS feeds or email updates
       Numbers” where we welcome your
       comments


                          OBTAIN COPIES OF AUDIT REPORTS
To obtain copies of our reports, visit our Website at http://oig.ssa.gov/audits-and-
investigations/audit-reports/all. For notification of newly released reports, sign up for e-updates
at http://oig.ssa.gov/e-updates.


                          REPORT FRAUD, WASTE, AND ABUSE
To report fraud, waste, and abuse, contact the Office of the Inspector General via
   Website:        http://oig.ssa.gov/report-fraud-waste-or-abuse
   Mail:           Social Security Fraud Hotline
                   P.O. Box 17785
                   Baltimore, Maryland 21235
   FAX:            410-597-0118
   Telephone:      1-800-269-0271 from 10:00 a.m. to 4:00 p.m. Eastern Standard Time
   TTY:            1-866-501-2101 for the deaf or hard of hearing
